                           U.S. COMMODITY FUTURES TRADING COMMISSION
                                                  Three Lafayette Centre
                                       1155 21st Street. NW. Washington. DC 20581
                                               Telephone: (202) 418-5110
                                                Facsimile: (202) 418-5522



   Office of the
Inspector General

                                              MEMORANDUM
     TO:               Gary Gensler
                       Chairman

     FROM:             A. Roy Lavik         a.....r~
                       Inspector General

     DATE:             December 13,2013

     SUBJECT:          Inspector General's Assessment of The Most Serious Management
                       Challenges Facing the Commodity Futures Trading Commission (CFTC)

    Introduction

    The Reports Consolidation Act of2000 (RCA) 1 authorizes the CFTC to provide financial and
    performance information in a meaningful and useful format for Congress, the President, and the
    public. The RCA requires the Inspector General to summarize the "most serious" management
    and performance challenges facing the Agency and to assess the Agency's progress in addressing
                     2
    those challenges. This memorandum fulfills our duties under the RCA.

    In order to identify and describe the most serious management challenges, as well as the
    Agency's progress in addressing them, we relied on data contained in the CFTC financial
    statement audit and Annual Financial Report, representations by agency management, and our
    knowledge of industry trends and CFTC operations .. Since Congress left the determination and
    threshold of what constitutes a most serious challenge to the discretion of the Inspector General,
    we applied the following defmition in preparing this statement:

            Serious management challenges are mission critical areas or programs that have
            the potential for a perennial weakness or vulnerability that, without substantial
            management attention, would seriously impact Agency operations or strategic
            goals.

    This memorandum summarizes the results of the CFTC's current financial statement audit,
    describes the Agency's progress on last year's management challenges, and fmally discusses the
    most serious management challenges that we have identified. For FY2014, the most serious
    management challenge is:


    1 P.L. 106-531, sec 3, 114 STAT. 2537 (Nov. 22, 2000), codified at 31 USC§ 3516(a).

    2Jd.
    •   For the CFTC to deliver on Congressional expectations embedded in the Wall Street
        Reform and Consumer Protection Act (Dodd Frank Act), including expansion of the
        CFTC's regulatory footprint to the swaps markets, while adhering to government-wide
        budgetary constraints.


CFTC Financial Statement Audit Results

In accordance with the Accountability ofTax Dollars Act,3 CFTC, along with numerous other
federal entities, is required to submit to an annual independent financial statement audit by the
Inspector General, or by an independent external auditor as determined by the Inspector
General.4 The results of the Fiscal Year 2013 financial statement audit will be discussed in the
Annual Financial Report, and the financial statement audit is expected to result in an unmodified
audit opinion.

CFTC's Progress on Last Year's Challenges

Last year, we identified two of the most serious management challenges:

    •   Efficient Deployment of Information Technology Resources; and,

    •   Expanding Delivery of Customer Protection Resources and Consumer Education. 5

CFTC made progress on both challenges, but these challenges remain a concern due to
government wide budget cuts which will require management to prioritize increased oversight
responsibilities while implementing the Dodd-Frank Act.
                                                                                    6
In FY20 14, under a government-wide continuing resolution, CFTC allocated $42 million
towards technological tools-which is unchanged from FY 2013 and a decline of$9 million from
FY 2012 spending levels. However, during FY2013, CFTC's regulatory responsibility over the
$400 trillion7 swaps market increased with the availability of continuous data on swap
transactions that must be analyzed and sifted for anomalous activity to initiate referrals to
Division of Enforcement. Therefore, this management challenge remains a concern given
CFTC's declining budget under sequestration.

Our FY20 13 fmancial statement audit of the CFTC Customer Protection Fund confrrmed that the
fmancial statements presented the fund's financial position fairly, in all material respects, and

3
  P.L. 107-289, 116 STAT. 2049, Nov. 7, 2002, codified at 31 USC 3501 note.
4 The IG's authority is found at§ 304 of the CFO Act, P.L. 101-576, 104 STAT.2852, Nov. 15, 1990, codififed at 31
USC 3521(e).
5 Section of748(g) of the Dodd-Frank Act, P.L. 111-203, 124 STAT. 1376, July 21,2010, added section 23(g) to the

Commodity Exchange Act, 7 U.S.C. § 26, to establish within the Treasury of the United States a revolving fund that
is available to the Agency for the payment ofwhistleblower awards and education initiatives. The FY2013 audit is
available here: http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/cpfreport20 13 .pdf.
6
  CFTC- Fiscal Year 2013 Agency Financial Report, Exhibit 26.
7
  !d., at page 13.


                                                        2
that the fund was fully funded. 8 As a result of this audit our near term goal is to evaluate how the
Customer Protection fund is using its available resources to reach potential participants in the
commodities markets with impartial and educational information. We have begun an audit to
assess CFTC's Customer Protection Resources and Consumer Outreach Program area's
emphasis on delivering targeted and educationally useful information to likely participants in the
commodities related markets.


Most Serious Management Challenges for the coming year

The most serious management challenge anticipated for FY 2014 is for the CFTC to deliver on
congressional expectations in the implementation of Dodd-Frank, including expansion of the
CFTC's regulatory footprint to the swaps market, while adhering to government wide budgetary
constraints.

CFTC has promulgated over 67 rules, orders, and guidances responsive to the Dodd-Frank Act. 9
Now that these rules are in place, management must develop additional mechanisms to shift
agency productivity from rule writing to rule implementation. As we have identified in the past,
technological spending can increase staff productivity, but the sheer volume and complexity of
industry-supplied data mandates that knowledgeable agency staff be on hand to provide the
guidance necessary to efficiently monitor the markets. With the availability of ownership
       10
control information across markets, CFTC surveillance of the swaps markets is broader and
more complex than the agency's pre-Dodd Frank Act mission of monitoring futures and options
on futures markets. Therefore, the agency must adjust its regulatory strategy to reflect its
expanded jurisdiction.

Moreover, increased reportable data will increase stakeholders' expectation that CFTC will
conduct a robust oversight of the swaps market. On January 1, 2013, certain swap market
participants began reporting new and historical swap data to Swap Data Repositories pursuant to
17 CFR Part 45, and the Commission began the process of analyzing these new data and
incorporating them into the weekly CFTC Swaps Report available on its website. 11 As a
consequence, the agency must now devote labor to the continuous surveillance of the swaps
markets. In addition, the agency is expanding its oversight of Swap Execution Facilities (SEFs) -
- trading platforms that must be registered with the CFTC. Such structural changes will require
the CFTC to expand compliance reviews of SEFs as they come online.. This reinforces our
assessment that the agency, in the near future, will have to examine its current labor skill set and
reallocate resources - a challenge during sequestration - towards compliance matters as opposed
to rule making.

8
  The audit report is available here:
http://www .cftc.gov/ucrnlgroups/public/@aboutcftc/documents/file/cpfreport20 13 .pdf.
9
   See remarks of Chairman Gensler at the CME Global Financial Leadership Conference,
Nov. 19, 2013 (available here: http://www.cftc.gov/PressRoom/SpeechesTestimony/opagensler-153).
10
    See Remarks of Chairman Gensler, Ownership and Control ("OCR") Reports, Forms 102/102S, 40/40S, and 71,
October 30,2013 (available at: http://www.cftc.gov/PressRoom/SpeechesTestimony/genslerstatementl03013); see
also 78 FR 69177-69266 (Nov. 18, 2013)(Final rules for ownership and control reports, effective date Feb. 18,2014,
available at: http://www.gpo.gov/fdsys/pkg!FR-2013-11-18/pdf/2013-26789.pdt).
11
   See http://www .cftc.gov/MarketReports/SwapsReports/index.htm.


                                                        3
Relevant OIG audits

My Office plans to contribute meaningful independent analyses towards aiding the agency to
explore solutions to its challenges. Toward that goal my office is completing an audit of CFTC
compliance with information security management requirements and has initiated an audit to
examine the CFTC's recent allocation of resources to information technology. As previously
mentioned, we are also conducting an audit to assess CFTC's Customer Protection Resources
and Consumer Outreach Program area's emphasis on delivering targeted and educationally
useful information to likely participants in the commodities related markets. These audits along
with our two financial statement audits and other program audits and reviews provide us with
valuable data for evaluating future challenges at the CFTC.

End




                                                4
